APPENDIX

APPENDIX
Opinion of the United States Court of Appeals for the Eleventh Circuit,
United States v. Thompson, No. 18-12754
(11th Cir. Jan. 5, 2021) .............................................................................................. A-1
United States v. Stepherson, No. 18-12545, 838 F. App’x 438
(11th Cir. Dec. 16, 2020) ............................................................................................ A-2
Eleventh Circuit Pattern Jury Instructions (Criminal Cases) 70.3 (2020) ............. A-3
Tenth Circuit, Criminal Pattern Jury Instructions 2.70 (2021) .............................. A-4

A-1

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12754
Non-Argument Calendar
________________________
D.C. Docket No. 1:17-cr-20895-DMM-3

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
KEMON DOMINIQUE THOMPSON,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(January 5, 2021)
Before WILSON, JORDAN, and GRANT, Circuit Judges.
PER CURIAM:

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 2 of 6

Defendant-Appellant Kemon Thompson appeals both his conviction,
pursuant to a guilty plea, and 96-month sentence for brandishing a firearm in
furtherance of a crime of violence, in violation of 18 U.S.C. § 924(c)(1)(A)(ii).1
I.
On appeal, Thompson first argues that his conviction for brandishing a
firearm in furtherance of a crime of violence, in violation of 18 U.S.C.
§ 924(c)(1)(A)(ii), is invalid and must be dismissed because the predicate offense
upon which that conviction was based—Hobbs Act robbery—does not qualify as a
“crime of violence” under the elements clause or residual clause of 18 U.S.C.
§ 924(c)(3).
A.
We review de novo whether a crime constitutes a “crime of violence” under
18 U.S.C. § 924(c). Steiner v. United States, 940 F.3d 1282, 1288 (11th Cir. 2019)
(per curiam).
Under 18 U.S.C. § 924(c)(1)(A), it is a violation to brandish a firearm during
and in relation to a crime of violence. 18 U.S.C. § 924(c)(1)(A)(ii). The statute
defines “crime of violence” in two subparts—the first is known as the elements
1

Thomas also appeals the district court’s determination that his prior nolo contendere plea to
possession with intent to sell marijuana, with adjudication withheld, constituted a “conviction”
for the purposes of applying the career offender sentencing enhancement under U.S.S.G. §
4B1.1(a). Because we find the district court's application of the career offender sentencing
enhancement was in error and Thompson's sentence should be vacated, we need not address this
issue.
2

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 3 of 6

clause, and the second is known as the residual clause. United States v. Davis, 139
S. Ct. 2319, 2324 (2019). For the purposes of § 924(c)(3), a crime of violence is
“an offense that is a felony” and either “(A) has as an element the use, attempted
use, or threatened use of physical force against the person or property of another”
or “(B) that by its nature, involves a substantial risk that physical force against the
person or property of another may be used in the course of committing the
offense.”
While the Supreme Court invalidated 18 U.S.C. § 924(c)(3)’s residual clause
in Davis for being unconstitutionally vague, it left intact § 924(c)(3)’s elements
clause. Davis, 139 S. Ct. at 2335–36; see Brown v. United States, 942 F.3d 1069,
1075 (11th Cir. 2019). Under our precedent, Hobbs Act robbery qualifies as a
crime of violence under 18 U.S.C. § 924(c)(3)’s elements clause. In re Fleur, 824
F.3d 1337, 1340–41 (11th Cir. 2016) (per curiam); see United States v. St. Hubert,
909 F.3d 335, 345–46 (11th Cir. 2018), cert. denied, 139 S. Ct. 1394 (2019), and
abrogated in part on other grounds by Davis, 139 S. Ct. at 2323–25, 2336 (2019)
(holding that Hobbs Act robbery categorically satisfies 18 U.S.C § 924(c)’s
definition of a “crime of violence”).
B.
Here, Thompson’s conviction for brandishing a firearm in furtherance of a
crime of violence, in violation of 18 U.S.C. § 924(c)(1)(A)(ii), was predicated
3

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 4 of 6

upon two Hobbs Act robbery offenses. These constitute “crimes of violence”
under our precedent. See In re Fleur, 924 F.3d at 1340–41. “We are bound by
prior panel decisions unless or until we overrule them while sitting en banc, or they
are overruled by the Supreme Court.” United States v. Jordan, 635 F.3d 1181,
1189 (11th Cir. 2011). Accordingly, we affirm Thompson’s conviction.
II.
Thompson also challenges his 96-month sentence, arguing that Hobbs Act
robbery does not qualify as a “crime of violence,” under the definition provided in
U.S.S.G. § 4B1.2(a), for the purposes of being designated a career offender.
Thompson argues that our intervening decision in United States v. Eason, 953 F.3d
1184 (11th Cir. 2020), means that the district court’s determination that he
qualified for career offender status constitutes plain error and should be reversed.
A.
We review de novo whether a defendant’s prior conviction qualifies as a
“crime of violence” under U.S.S.G § 4B1.2(a). See United States v. RosalesBruno, 676 F.3d 1017, 1020 (11th Cir. 2012). However, when a defendant fails to
object to an error before the district court, we review the argument for plain error.
United States v. Hall, 314 F.3d 565, 566 (11th Cir. 2002). Under this standard, the
appellant must prove: (1) an error occurred; (2) the error was plain; (3) it affected
his substantial rights; and (4) it seriously affected the fairness or integrity of the
4

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 5 of 6

judicial proceedings. United States v. Olano, 507 U.S. 725, 732 (1993). “In most
cases, a determination of whether error affects a substantial right turns upon
whether it affected the outcome of the proceedings.” Hall, 314 F.3d at 566.
“[W]hether a legal question was settled or unsettled at the time of trial, it is
enough that an error be ‘plain’ at the time of appellate consideration for the second
part of the four-part Olano test to be satisfied.” Henderson v. United States, 568
U.S. 266, 279 (2013) (internal quotation marks omitted and alterations accepted).
An incorrect calculation of a Sentencing Guideline affects a defendant’s substantial
rights. Molina-Martinez v. United States, 136 S. Ct. 1338, 1349 (2016) (finding
that a defendant seeking appellate review of an unpreserved Sentencing Guidelines
error need not make any further showing of prejudice beyond the fact that an
erroneous, and higher, Guidelines range was applied at sentencing). Furthermore,
the failure to correct such a plain Guidelines error seriously affects “the fairness,
integrity, and public reputation of judicial proceedings.” Rosales-Mireles v. United
States, 138 S. Ct. 1897, 1911 (2018).
Hobbs Act robbery does not qualify as a “crime of violence” under U.S.S.G.
§ 4B1.2(a) and therefore cannot serve as a predicate offense for a career offender
sentencing enhancement. Eason, 953 F.3d at 1195. The Guideline sentence for a
conviction based on a violation of 18 U.S.C. § 924(c), when the defendant does not
qualify as a career offender under U.S.S.G. § 4B1.1, is the minimum term of
5

USCA11 Case: 18-12754

Date Filed: 01/05/2021

Page: 6 of 6

imprisonment required by statute. See U.S.S.G. § 2K2.4. A conviction pursuant to
18 U.S.C. § 924(c)(1)(A)(ii) carries a minimum term of imprisonment of 84
months.
B.
Here, the district court’s determination that Hobbs Act robbery is a crime of
violence for purposes of the career offender sentencing enhancement under
U.S.S.G. § 4B1.1 was plain error. While Thompson’s case was on appeal, we held
that Hobbs Act robbery does not constitute a crime of violence under the
Sentencing Guidelines. See Eason, 953 F.3d at 1188–89, 1195. Thus, Thompson
has demonstrated that the error is plain. See Henderson, 568 U.S. at 279. This
erroneous application of the career offender sentencing enhancement resulted in an
incorrect, and higher, Guidelines range being applied at Thompson’s sentencing—
a Guidelines range of 262 to 327 months’ imprisonment as opposed to the correct
84 months’ imprisonment. Thus, the error affected Thompson’s substantial rights
and the fairness, integrity, and public reputation of the judicial proceedings. See
Rosales-Mireles, 138 S. Ct. at 1909–1911.
Having satisfied the elements for plain error review under Olano, we vacate
Thompson’s sentence and remand for resentencing without the career offender
Guideline enhancement under U.S.S.G. § 4B1.1.
AFFIRMED IN PART, VACATED IN PART, REMANDED.
6

A-2

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

838 Fed.Appx. 438
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Rahshard STEPHERSON, Defendant-Appellant.
No. 18-12545
|
Non-Argument Calendar
|
(December 16, 2020)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Southern District of Florida, No.
1:17-cr-20895-DMM-2, Donald M. Middlebrooks, J., of
conspiracy to commit Hobbs Act robbery, Hobbs Act robbery,
and brandishing firearm while committing crime of violence.
Defendant appealed.

Holdings: The Court of Appeals held that:
evidence was sufficient to support convictions for Hobbs Act
robbery and conspiracy to commit Hobbs Act robbery;
district court did not abuse its discretion by denying
defendant's motion for new trial based on victim's inconsistent
testimony;
evidence of prior Florida robbery conviction was admissible
other-acts evidence; and
district court's error in classifying defendant as career
offender under Sentencing Guidelines was plain.
Affirmed in part, vacated in part, and remanded.
Procedural Posture(s): Appellate Review; Post-Trial
Hearing Motion.

Attorneys and Law Firms
*439 Carol Herman, Jason Wu, Assistant U.S. Attorney,
Daniel Matzkin, U.S. Attorney Service - Southern District of
Florida, U.S. Attorney Service - SFL, Miami, FL, Emily M.
Smachetti, U.S. Attorney's Office, Miami, FL, for Plaintiff Appellee
Curt Obront, Obront Corey, PLLC, Miami, FL, for Defendant
- Appellant
Rahshard Jovan Stepherson, Pro Se
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 1:17-cr-20895-DMM-2
Before GRANT, LUCK, and ANDERSON, Circuit Judges.
Opinion
PER CURIAM:
At 2:30am on a Friday morning, Ijan Van Wyk walked with a
friend down Ocean Drive in Miami Beach. The two had just
*440 spent several hundred dollars at South Beach bars and
were in search of another one to spend their remaining cash.
That night, Van Wyk carried an iPhone, a wallet with two bank
cards, $30–$60 in cash, and a $6,000 wristwatch. A few hours
later, he went home empty-handed. He and his friend were
robbed at gunpoint.
A jury convicted Rahshard Stepherson of the robbery, finding
him guilty of one count of conspiracy to commit Hobbs Act
robbery, one count of Hobbs Act robbery, and one count of
brandishing a firearm while committing a crime of violence.
The district court determined that Stepherson was a career
offender pursuant to U.S.S.G. § 4B1.1 and sentenced him to
360 months’ imprisonment. Stepherson now challenges his
conviction and sentence. We affirm in part and reverse in part.

I.
Van Wyk, an Australian tourist, traveled to the United States
to visit his long-distance girlfriend in Miami. The night
before his scheduled departure, he went out for drinks in
Miami Beach with a friend-of-a-friend, Will Hardy. They
visited “around five” bars, spending about $200 each. Around
2:30am, they left one bar and began searching for another.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

As they walked down Ocean Drive, they ran into three men.
The men offered them weed; they declined. They told the men
that they were “just looking for another bar to go to.” “Follow
us,” the men responded, “we can show you the way.”
Naively, Van Wyk and Hardy followed the men about a block
down Ocean Drive and into an alley. One of the men opened
a door and they followed him into a fire escape. Immediately,
Van Wyk sensed that “something wasn't right.” But he was
boxed in on both sides.
One of the men—who Van Wyk later identified as Stepherson
—“manhandled [them] into the fire escape.” When Hardy
pushed back, Stepherson pulled out and cocked a pistol.
Van Wyk screamed at Hardy to settle down. But as Hardy
kept resisting, Stepherson pressed the gun into his neck and
stomach and then into Van Wyk's stomach.
Stepherson told Hardy, “[N]----, I ain't playing,” and “pulled
the magazine out” of the pistol to show Hardy and Van Wyk
the live rounds inside. The men then demanded that Van
Wyk and Hardy go with them to an ATM to withdraw cash.
Stepherson left with Hardy, leaving Van Wyk in the stairwell.
A few minutes later, they returned.
Stepherson pointed the gun at Van Wyk and robbed him
of his personal possessions, while another robbed Hardy.
Altogether, the robbers took Van Wyk's iPhone, a wallet with
two bank cards, $30–$60 in cash, and a $6,000 wristwatch
and Hardy's two cell phones and cash.
Stepherson and the other two men then exited the fire escape,
leaving Van Wyk and Hardy alone. Once they were gone, Van
Wyk and Hardy escaped to the street. They fled to a nearby
police station and reported that they had just been robbed at
gunpoint.
The police arrested Stepherson and his two co-defendants,
Kemon Thompson and Vidyapati El, in connection with the
robbery and a grand jury charged them each with four counts:
conspiracy to commit Hobbs Act robbery in violation of
18 U.S.C. § 1951(a), two counts of Hobbs Act robbery in
violation of 18 U.S.C. § 1951(a), and brandishing a firearm
in furtherance of a crime of violence in violation of 18 U.S.C.
§ 924(c)(1)(A)(ii). While Stepherson's co-defendants elected
to plead guilty, Stepherson went to trial. The jury found him
guilty of three of the four counts—acquitting *441 him only
of Hobbs Act robbery against Hardy.

Stepherson moved for a new trial, but the district court
denied that motion. The court then sentenced him to 360
months’ imprisonment. He now appeals his convictions and
his sentence.

II.
We review a preserved challenge to “the sufficiency of the
evidence de novo, viewing the evidence in the light most
favorable to the government and drawing all reasonable
inferences in favor of the verdict.” United States v. Schier,
438 F.3d 1104, 1107 (11th Cir. 2006). But when the defendant
raises a claim challenging the sufficiency of the evidence on
a ground not argued below, we review the new claim for plain
error only. United States v. Joseph, 709 F.3d 1082, 1093 (11th
Cir. 2013). Under plain error review, before we can correct
an error not raised at trial, there must be “(1) error, (2) that
is plain, and (3) that affects substantial rights. If all three
conditions are met, an appellate court may then exercise its
discretion to notice a forfeited error, but only if (4) the error
seriously affects the fairness, integrity, or public reputation of
judicial proceedings.” United States v. Baker, 432 F.3d 1189,
1202–03 (11th Cir. 2005) (quotation omitted).
We review a preserved challenge to an evidentiary ruling for
abuse of discretion. United States v. Ellisor, 522 F.3d 1255,
1267 (11th Cir. 2008). And we also apply abuse of discretion
review to the denial of a motion for a new trial. Lamonica
v. Safe Hurricane Shutters, Inc., 711 F.3d 1299, 1312 (11th
Cir. 2013). But we review de novo questions of statutory
interpretation, as well as the district court's interpretation and
application of the Sentencing Guidelines. United States v.
Segarra, 582 F.3d 1269, 1271 (11th Cir. 2009); United States
v. Gibson, 434 F.3d 1234, 1243 (11th Cir. 2006).

III.
A.
Stepherson was convicted of both Hobbs Act robbery and
conspiracy to commit Hobbs Act robbery. The Hobbs Act
prohibits “extortion, and attempts or conspiracies to extort,
that ‘in any way or degree obstruct[ ], delay[ ], or affect[ ]
commerce or the movement of any article or commodity in
commerce.’ ” United States v. Kaplan, 171 F.3d 1351, 1354
(11th Cir. 1999) (quoting 18 U.S.C. § 1951(a)) (alterations

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

in original). This case focuses on the commerce element.
For Hobbs Act conspiracy, the government must prove
that the defendant's scheme “would have affected interstate
commerce,” while a substantive violation of the Hobbs Act
requires proof of “an actual effect on interstate commerce.”
United States v. Diaz, 248 F.3d 1065, 1084 (11th Cir. 2001).
Stepherson insists that the government presented insufficient
evidence that his robbery of Van Wyk was likely to affect or
had an actual effect on interstate commerce. Because he raises
this issue for the first time on appeal, we review for plain error.
The Hobbs Act defines “commerce” broadly, covering “all
commerce between any point in a State ... and any point
outside thereof.” 18 U.S.C. § 1951(b)(3). And the Supreme
Court's interpretation of the Hobbs Act has followed the
statute's broad terms, recognizing that the Act manifests
Congress's intent to “use all the constitutional power
Congress has to punish interference with interstate commerce
by extortion, robbery or physical violence.” Stirone v. United
States, 361 U.S. 212, 215, 80 S.Ct. 270, 4 L.Ed.2d 252 (1960).
To that end, our Court has held that though convictions
*442 under the Act require proof of an effect on interstate
commerce, the “effect need not be substantial, and even a
minimal impact on interstate commerce is enough to support a
Hobbs Act conviction.” United States v. Smith, 967 F.3d 1196,
1209 (11th Cir. 2020) (quotation omitted).
The Hobbs Act most commonly applies to robberies of
businesses. But robberies of individuals may also qualify.
In Diaz, we identified three types of circumstances where
a robbery of an individual would affect commerce, such as
when “(1) the crime depletes the assets of an individual who
is directly engaged in interstate commerce; (2) the crime
causes the individual to deplete the assets of an entity engaged
in interstate commerce; or (3) the number of individuals
victimized or the sums involved are so large that there will
be a cumulative impact on interstate commerce.” Diaz, 248
F.3d at 1085. These are merely examples—an “effective
barometer for measuring a defendant's actions and their effect
on interstate commerce”—but Diaz is not a restrictive test.
Smith, 967 F.3d at 1208 (quotation omitted). Instead, to
determine whether robbery of an individual qualifies under
the Hobbs Act, we must make a “fact-specific inquiry into
the directness and likely extent of any impact on interstate
commerce.” Id. (quotation omitted).
The government's case rests on an inference that Van Wyk
would have spent more money in the hours leading up to his
departure from the United States, so he was likely interrupted

from engaging in interstate commerce. Stepherson argues that
we have never held that such a hypothetical connection to
interstate commerce can qualify for Hobbs Act robbery.
But even if that's so, neither have we held that such a
connection falls outside the Hobbs Act's broad net. And
that proves fatal to Stepherson's appeal. Recall that we are
reviewing this argument for plain error and for an error to be
“plain enough for the plain error rule, an asserted error must
be clear from the plain meaning of a statute or constitutional
provision, or from a holding of the Supreme Court or this
Court.” United States v. Rodriguez, 627 F.3d 1372, 1381
(11th Cir. 2010). Stepherson has identified no case from this
Court or the Supreme Court that place these minimal effects
on interstate commerce outside prosecution under the Hobbs
Act. So we cannot say that the error below was plain.

B.
Stepherson next insists that there was insufficient evidence
to convict him because the government's main witness—the
victim, Van Wyk—“presented two alternative statements for
the same crime,” one at the police station and one at trial. Such
inconsistencies, he believes, rendered Van Wyk not credible.
He also argues that because of this inconsistent testimony, the
district court should have granted him a new trial.
Credibility decisions, though, are matters for the jury, and
when we are reviewing a challenge to the sufficiency of
the evidence, we assume that the jury made all credibility
decisions “in the way that supports the verdict.” United States
v. Thompson, 473 F.3d 1137, 1142 (11th Cir. 2006). Even
though Van Wyk's story differed in some respects—which
he admitted during cross-examination—the jury “by their
verdict, at the very least, found [him] to be a credible witness.”
See United States v. Bazemore, 41 F.3d 1431, 1435 n.9 (11th
Cir. 1994).
Nor did the district court err in denying Stepherson's motion
for a new trial based on Van Wyk's inconsistent testimony.
*443 When a defendant moves for a new trial based on the
weight of the evidence, the court “need not view the evidence
in the light most favorable to the verdict,” but “may weigh
the evidence and consider the credibility of the witnesses.”
United States v. Martinez, 763 F.2d 1297, 1312 (11th Cir.
1985). At the same time, such motions are “not favored.” Id.
at 1313. Courts are instructed to “grant them sparingly and
with caution, doing so only in those really exceptional cases,”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

where the evidence weighs “heavily against the verdict, such
that it would be a miscarriage of justice to let the verdict
stand.” Id. Indeed, courts have granted new trials based on
the weight of the evidence “only where the credibility of
the government's witnesses had been impeached and the
government's case had been marked by uncertainties and
discrepancies.” Id.
True, portions of Van Wyk's testimony conflicted with what
he originally told the police. For instance, Van Wyk originally
told the police that he was forced into the alley by a large man
with dreadlocks—Stepherson's co-defendant, Vidyapati El.
But a video presented at trial showed that Van Wyk entered the
alley voluntarily. Yet despite these minor inconsistencies, Van
Wyk's testimony was consistent in other important respects—
including his description of the robbers and the items stolen,
and his testimony about one the robbers threatening him with
a gun.
Moreover, it was corroborated by other testimony and
evidence. A surveillance video showed Van Wyk and
Hardy entering the alley with Stepherson and two other
men, Stepherson leaving with Hardy, and then all three
robbers leaving for good, with Van Wyk and Hardy fleeing
shortly after. Stepherson even identified himself and his codefendant, El, in this surveillance video. And police officers
corroborated other parts of Van Wyk's account, such as the
time and place that he reported the robbery at the police
station.
We are not persuaded that Van Wyk's testimony was, on the
whole, not credible. And the government's case was hardly
“marked by uncertainties and discrepancies,” making it a
“miscarriage of justice” to allow the jury's verdict to stand.
Martinez, 763 F.2d at 1313. The district court therefore did
not abuse its discretion by denying Stepherson a new trial. 1

C.
Stepherson also believes that the district court abused its
discretion by admitting evidence of a “dissimilar uncharged
Florida robbery conviction” which occurred ten years before
the instant offense. He claims that the government improperly
used this evidence as “character assassination, showing
propensity and bad character,” in a prejudicial manner. We
disagree.

Under Rule 404(b) of the Federal Rules of Evidence,
the government may not provide evidence of a crime or
conviction to “prove a person's character” as a way of
showing that the person acted in conformity with that
character. Fed. R. Evid. 404(b)(1). But it may offer this
evidence to prove “motive, opportunity, intent, preparation,
plan, knowledge, identity, absence of mistake, or lack of
accident.” Fed. R. Evid. 404(b)(2). This Court has created
a three-prong test to determine the admissibility of 404(b)
evidence: (1) the evidence *444 must be relevant for some
reason other than proving the defendant's character; (2)
the “act must be established by sufficient proof to permit
a jury finding that the defendant committed the extrinsic
act”; and (3) the “probative value of the evidence must
not be substantially outweighed by its undue prejudice” or
by “confusing the issues, misleading the jury, undue delay,
wasting time, or needlessly presenting cumulative evidence.”
United States v. Matthews, 431 F.3d 1296, 1310–11 (11th
Cir. 2005) (quotation omitted); Fed. R. Evid. 403. The
government's evidence meets all three prongs.
Though Stepherson's briefing seems to focus on why this
evidence did not confirm his “identity” under Rule 404(b),
the government actually used the earlier conviction to prove
intent. Stepherson, by pleading not guilty, made “intent
a material issue which imposes a substantial burden on
the government to prove,” which it may do by providing
“qualifying Rule 404(b) evidence.” United States v. Edouard,
485 F.3d 1324, 1345 (11th Cir. 2007) (quotation omitted).
When the government offers a prior conviction to prove
intent, “its relevance is determined by comparing the
defendant's state of mind in perpetrating both the extrinsic and
charged offenses.” Id. (quotation omitted). If the state of mind
for both offenses is the same, the first prong of the Rule 404(b)
test is satisfied. Id. Here, the elements for Florida robbery
and Hobbs Act robbery are very similar, except for the added
commerce element in the Hobbs Act. Compare Fla. Stat. §
812.13(1), with 18 U.S.C. § 1951(b)(1). And the two acts
require the same state of mind, namely, an intent to knowingly
take someone else's property by means of actual or threatened
force or violence. See United States v. Woodruff, 296 F.3d
1041, 1046 (11th Cir. 2002); Fla. Stat. § 812.13(1).
Next, because the parties stipulated that the prior conviction
occurred, this “eliminated the government's burden to
produce evidence” of the conviction. United States v. Hardin,
139 F.3d 813, 817 (11th Cir. 1998). So the second prong was
satisfied.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

The government also satisfied the third prong, because
the probative value of admitting the conviction was not
outweighed by prejudice. We have “generally held” that a
prior conviction is “highly probative” if the prior offense
requires the same intent as the charged offense and if “these
acts are proximate in time to the charged offenses.” Baker,
432 F.3d at 1205 (quotation omitted). The two offenses did
share the same intent requirement, and, while there was a
ten-year gap between the Florida conviction and this charged
offense, the significance of this intervening time period is
diminished because Stepherson was in prison for six of
those years. See United States v. LeCroy, 441 F.3d 914, 926
(11th Cir. 2006). Furthermore, the district court “cured any
possible unfair prejudice” by the Court's repeated limiting
instructions to the jury that Stepherson's conviction could
only be considered for the limited purpose of determining
intent. See United States v. Brown, 665 F.3d 1239, 1248
(11th Cir. 2011) (cleaned up). We therefore cannot say that
the district court abused its discretion by admitting the
government's Rule 404(b) evidence.

But to qualify for this enhancement, the defendant's current
offense must be either a crime of violence or a controlled
substance offense. U.S.S.G. § 4B1.1(a)(2). And this Court
recently determined that Hobbs Act robbery is not a “crime
of violence” as defined under the Sentencing Guidelines.
United States v. Eason, 953 F.3d 1184, 1194–95 (11th Cir.
2020). Stepherson raises Eason for the first time on appeal,
so we review for plain error. This error, though, was plain and
affected Stepherson's substantial rights. See United States v.
Jones, 743 F.3d 826, 829–30 (11th Cir. 2014) (an “intervening
decision by this Court or the Supreme Court squarely
on point may make an error plain” (quotation omitted));
Molina-Martinez v. United States, ––– U.S. ––––, 136 S.
Ct. 1338, 1346–47, 194 L.Ed.2d 444 (2016). Moreover, a
“faulty enhancement” seriously affects the fairness, integrity,
and public reputation of judicial proceedings. United States
v. Bankston, 945 F.3d 1316, 1320 (11th Cir. 2019). The
government also admits that Stepherson's career offender
sentence must be vacated. We will therefore vacate and
remand to the district court for resentencing.
***

D.
Stepherson's final challenge to his convictions is that he was
wrongly convicted of brandishing a firearm in furtherance
of a crime of violence, in violation of 18 U.S.C. § 924(c),
because he insists that Hobbs Act robbery is not a predicate
offense. But as Stepherson himself acknowledges in his brief,
this argument is squarely foreclosed by our precedent. See
*445 United States v. St. Hubert, 909 F.3d 335, 351–52 (11th
Cir. 2018); In re St. Fleur, 824 F.3d 1337, 1341 (11th Cir.
2016).

E.

The evidence presented at trial was sufficient to permit
a rational trier of fact to find beyond a reasonable doubt
that Stepherson was guilty of conspiring to commit and
committing Hobbs Act robbery. And we reject Stepherson's
other arguments against his convictions. However, the
district court did err in classifying Stepherson as a career
offender under the Sentencing Guidelines. We therefore
affirm Stepherson's convictions, vacate his sentence, and
remand for resentencing.
AFFIRMED in
REMANDED.

part,

VACATED

in

part,

and

All Citations

Stepherson raises one final objection—this time, to his
sentence. At sentencing, the district court classified
Stepherson as a career offender under U.S.S.G. § 4B1.1(a)(2).

838 Fed.Appx. 438

Footnotes
1

In passing, Stepherson also seems to suggest that he is entitled to a new trial because of the jury's supposedly
inconsistent verdicts—acquitting him of robbing Hardy while convicting him of robbing Van Wyk. But a “jury's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Stepherson, 838 Fed.Appx. 438 (2020)

verdicts are insulated from review on the ground that they are inconsistent, as long as sufficient evidence
supports each finding of guilt.” United States v. Albury, 782 F.3d 1285, 1295 (11th Cir. 2015) (cleaned up).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

A-3

O70.3
Interference with Commerce by Robbery
Hobbs Act – Racketeering
(Robbery)
18 U.S.C. § 1951(a)
It’s a Federal crime to acquire someone else’s property by robbery and in
doing so to obstruct, delay, or affect interstate commerce.
The Defendant can be found guilty of this crime only if all the following
facts are proved beyond a reasonable doubt.
(1) the Defendant knowingly acquired someone else’s personal
property;
(2) the Defendant took the property against the victim's will, by using
actual or threatened force, or violence, or causing the victim to
fear harm, either immediately or in the future; and
(3) the Defendant's actions obstructed, delayed, or affected interstate
commerce.
“Property” includes money, tangible things of value, and intangible rights
that are a source or element of income or wealth.
“Fear” means a state of anxious concern, alarm, or anticipation of harm. It
includes the fear of financial loss as well as fear of physical violence.
“Interstate commerce” is the flow of business activities between one state
and anywhere outside that state.
The Government doesn’t have to prove that the Defendant specifically
intended to affect interstate commerce. But it must prove that the natural
1

consequences of the acts described in the indictment would be to somehow delay,
interrupt, or affect interstate commerce. If you decide that there would be any
effect at all on interstate commerce, then that is enough to satisfy this element. The
effect can be minimal.
ANNOTATIONS AND COMMENTS
18 U.S.C. § 1951(a) provides:
Whoever in any way or degree obstructs, delays, or affects commerce or the
movement of any article or commodity in commerce, by robbery [shall be guilty
of an offense against the United States].
Maximum Penalty: Twenty (20) years imprisonment and applicable fine.
In United States v. Thomas, 8 F.3d 1552, 1562-63 (11th Cir. 1993), the Eleventh Circuit
suggested that the Government need not prove specific intent in order to secure a
conviction for Hobbs Act robbery. See also United States v. Gray, 260 F.3d 1267, 1283
(11th Cir. 2001) (noting that the Court in Thomas suggested that specific intent is not an
element under § 1951).
In United States v. Kaplan, 171 F.3d 1351, 1356-58 (11th Cir. 1999), the Eleventh Circuit
held that under § 1951 the affect on commerce need not be adverse. The effect on
commerce can involve activities that occur outside of the United States. See, e.g., Kaplan,
171 F.3d at 1355-58 (use of interstate communication facilities and claimed travel to
carry out extortion scheme’s object, which was the movement of substantial funds from
Panama to Florida, constituted sufficient affect under § 1951).
The commerce nexus for an attempt or conspiracy under § 1951 can be shown by
evidence of a potential impact on commerce or by evidence of an actual, de minimis
impact on commerce. Kaplan, 171 F.3d at 1354 (citations omitted). In the case of a
substantive offense, the impact on commerce need not be substantial; it can be minimal.
See id.; see also United States v. Le, 256 F.3d 1229 (11th Cir. 2001); U.S. v. Verbitskaya,
405 F.3d 1324 (11th Cir. 2005) (jurisdictional element can be met simply by showing this
crime had a minimal effect on commerce); U.S. v. White, No. 07-11793, 2007 U.S. App.
LEXIS 27819 (11th Cir. Nov. 29, 2007) (jurisdictional element can be met simply by
showing this crime had a minimal effect on commerce); U.S. v. Mathis, 186 Fed. Appx.
971 (11th Cir. 2006); U.S. v. Stamps, 201 Fed. Appx. 759 (11th Cir. 2006).

2

In U.S. v. Taylor, 480 F.3d 1025 (11th Cir. 2007), the Eleventh Circuit held that the
jurisdictional element is met even when the object of a planned robbery (i.e. drugs in a
sting operation) or its victims are fictional.

3

A-4

2.70

PATTERN CRIMINAL JURY INSTRUCTIONS

2.70
[ROBBERY] [EXTORTION] BY FORCE, VIOLENCE,
OR FEAR
18 U.S.C. § 1951(a) (HOBBS ACT)
The defendant is charged in count ————— with a
violation of 18 U.S.C. section 1951(a), commonly called the
Hobbs Act.
This law makes it a crime to obstruct, delay or affect
interstate commerce by [robbery] [extortion].
To ﬁnd the defendant guilty of this crime you must be
convinced that the government has proved beyond a reasonable doubt that:
First: the defendant obtained [attempted to obtain]
property from another [without][with] that person’s consent;
Second: the defendant did so by wrongful use of actual
or threatened force, violence, or fear; and
Third: as a result of the defendant’s actions, interstate
commerce, or an item moving in interstate commerce, was
actually or potentially delayed, obstructed, or affected in
any way or degree;
[Robbery is the unlawful taking of personal property
from another against his or her will. This is done by
threatening or actually using force, violence, or fear of
injury, immediately or in the future, to person or property.]
[Extortion is the obtaining of or attempting to obtain
property from another, with that person’s consent, induced
by wrongful use of actual or threatened force, violence, or
fear. The use of actual or threatened force, violence, or fear
is “wrongful” if its purpose is to cause the victim to give
property to someone who has no legitimate claim to the
property.]
“Property” includes money and other tangible and
240

2.70

SUBSTANTIVE OFFENSES

intangible things of value that are transferable – that is,
capable of passing from one person to another.
“Fear” means an apprehension, concern, or anxiety
about physical violence or harm or economic loss or harm
that is reasonable under the circumstances.
“Force” means an act capable of causing physical pain
or injury to another person. This requires more than the
slightest offensive touching, but may consist of only the
degree of force necessary to inﬂict pain.
“Obstructs, delays, or affects interstate commerce”
means any action which, in any manner or to any degree,
interferes with, changes, or alters the movement or transportation or ﬂow of goods, merchandise, money, or other
property in interstate commerce.
The defendant need not have intended or anticipated
an effect on interstate commerce. You may ﬁnd the effect is
a natural consequence of his actions. If you ﬁnd that the
government has proved beyond a reasonable doubt that the
defendant intended to take certain actions—that is, he did
the acts charged in the indictment in order to obtain property—and you ﬁnd those actions actually or potentially
caused an effect on interstate commerce, then you may ﬁnd
the requirements of this element have been satisﬁed.
Comment
In Sekhar v. United States, 570 U.S. 729 (2013), the Supreme Court
interpreted the term “property” under the Hobbs Act to mean something
of value that can be exercised, transferred, or sold. Id. at 736. The
extortion provision of the Hobbs Act requires not only the deprivation,
but also the acquisition, of property. 18 U.S.C. § 1951(b)(2). Thus, the
property, whether tangible or intangible, must actually be “obtained” in
order for there to be a violation. See Scheidler v. Nat’l Org. for Women,
Inc., 537 U.S. 393, 409 (2003) (holding that by interfering with, disrupting, and in some instances “shutting down” clinics that performed abortions, individual and corporate organizers of antiabortion protest
network did not “obtain or attempt to obtain property from women’s
rights organization or abortion clinics, and so did not commit “extortion” under the Hobbs Act).
The Tenth Circuit has consistently upheld the Hobbs Act as a
241

2.70

PATTERN CRIMINAL JURY INSTRUCTIONS

permissible exercise of the authority granted to Congress under the
Commerce Clause, both in the context of robbery, United States v.
Shinault, 147 F.3d 1266, 1278 (10th Cir. 1998), and extortion, United
States v. Bruce, 78 F.3d 1506, 1509 (10th Cir. 1996). It also has made
clear that only a de minimis effect on commerce is required, United
States v. Wiseman, 172 F.3d 1196, 1214–15 (10th Cir. 1999), and has
upheld a trial court’s refusal to instruct that a substantial effect is
required, United States v. Battle, 289 F.3d 661, 664 (10th Cir. 2002).
The court seems to have struggled with the language that “commerce . . . was actually or potentially . . . affected” and that the
government can meet its burden by evidence that the defendant’s actions caused or “would probably cause” an effect on interstate commerce.
In United States v. Nguyen, 155 F.3d 1219 (10th Cir. 1998), the court
observed that use of the words probable and potential “while perhaps
not the best way to explain to the jury the interstate commerce requirement, did not constitute error.” Id. at 1229. In United States v. Wiseman, supra, the court upheld an instruction which stated, in pertinent
part, that the government could meet its burden by evidence that money
stolen for businesses “could have been used to obtain such foods or services” from outside the state, as opposed to “would” have been so used.
Id. at 1215 (emphasis in original). The court, citing Nguyen, held that
the instruction was not prejudicial because only a potential effect on
commerce is required. Id. at 1216. The Tenth Circuit continues to approve instructions requiring proof of actual, potential, de minimis or
even just probable effect on commerce. See United States v. Curtis, 344
F.3d 1057, 1068–69 (10th Cir. 2003).
The Tenth Circuit has concluded that the force element in Hobbs
Act robbery requires “violent force,” as deﬁned in Johnson v. United
States, 559 U.S. 133, 139–40 (2010). See United States v. MelgarCabrera, 892 F.3d 1053, 1064–65 (10th Cir. 2018). Accordingly, the jury
should be instructed that “force” means an act “capable of causing physical pain or injury to another person.” United States v. Jefferson, 911
F.3d 1290, 1299 (10th Cir. 2018).
Use Note
When the government’s evidence is that the robbery or extortion
actually affected commerce, the words “potentially,” “probably” and
“could” can be eliminated from the instruction.
The instruction should be modiﬁed in the case of an “attempt.” See
Instruction 1.32.

242

